HHS/OIG, Audit - "Review of Medicare Contractor's Pension Segmentation
Requirements at Blue Cross Blue Shield of Georgia for January 1, 1993, to May
31, 2001," (A-07-07-00236)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare
Contractor's Pension Segmentation Requirements at Blue Cross Blue Shield of
Georgia for January 1, 1993, to May 31, 2001," (A-07-07-00236)
November 16, 2007
Complete Text of Report is available in PDF format (858 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Blue
Cross Blue Shield of Georgia (Georgia) complied with its Medicare contracts
pension segmentation requirements while implementing the prior audit findings
and updating the Medicare segments assets from January 1, 1993, to May 31, 2001.  Georgia did not implement the prior audit recommendation to increase Medicare
segment assets and did not comply with its Medicare contracts pension
segmentation requirements while updating the segments assets from January 1,
1993, to May 31, 2001.  As a result, Georgia understated the May 31, 2001,
Medicare segment pension assets by $85,654.
We recommended that Georgia increase Medicare segment
pension assets by $85,654 as of May 31, 2001, and implement controls to ensure
that the Medicare segments assets are updated in accordance with the Medicare
contract.  Georgia concurred with our recommendations.